                                   SOCIAL SECURITY
MEMORANDUM

Date:   June 7, 2005                                                         Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Inspector General

Subject: Indirect Costs Claimed by the Oregon Disability Determination Services
        (A-09-05-15001)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the indirect costs claimed by the Oregon Disability Determination
        Services for Federal Fiscal Years 2001 through 2003 were allowable and properly
        allocated.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                       S
                                                       Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Lenore R. Carlson
        Jeff Hild
        Candace Skurnik
        Bryan Johnston
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


     INDIRECT COSTS CLAIMED
    BY THE OREGON DISABILITY
    DETERMINATION SERVICES

    June 2005     A-09-05-15001




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objective was to determine whether the indirect costs claimed by the Oregon
Disability Determination Services (OR-DDS) for Federal Fiscal Years (FY) 2001 through
2003 were allowable and properly allocated.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources. SSA
reimburses the DDS for 100 percent of allowable expenditures. The expenditures
include both direct and indirect costs.

RESULTS OF REVIEW
The Oregon Department of Human Services (OR-DHS) incorrectly charged indirect
costs to SSA programs. This occurred because OR-DHS charged SSA for indirect
costs from components that did not benefit OR-DDS, and OR-DHS claimed indirect
costs on its Form SSA-4513 for which it lacked supporting documentation. As a result,
OR-DHS improperly charged SSA for $3,992,358 in unallowable costs for October 1998
through June 2004.

CONCLUSION AND RECOMMENDATIONS
We recommend that SSA (1) instruct OR-DHS to refund $3,477,305 for unallowable
indirect costs from components that did not benefit OR-DDS for FYs 1999 through
2004, (2) instruct OR-DHS to identify and return unallowable indirect costs from the
Office of Information Services (OIS) for FYs 1995 through 1998, (3) instruct OR-DHS to
exclude OR-DDS from the cost pools that do not provide it a benefit, and
(4) instruct OR-DHS to refund $515,053 or provide documentation to support the total
amount of indirect costs claimed for FY 2002.

SSA COMMENTS
SSA agreed with all of our recommendations. See Appendix C for the full text of
SSA’s comments.



Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   i
OR-DHS COMMENTS
OR-DHS generally agreed that it had incorrectly charged indirect costs to SSA
programs.

OR-DHS generally agreed with Recommendation 1. OR-DHS stated it had removed
$124,868 of charges from three components and refunded $111,886 related to OIS
costs. OR-DHS did not provide specific comments to address the remaining
$3,240,551 of unallowable indirect costs charged to SSA programs.

For Recommendation 3, OR-DHS stated it adjusted its cost allocation process to
eliminate OIS charges. In addition, OR-DHS stated that unallowable charges from three
components had been made because of administrative errors. OR-DHS did not provide
comments to Recommendations 2 and 4. See Appendix D for the full text of OR-DHS’
comments.

OIG RESPONSE
We appreciate the comments from SSA and OR-DHS. We are pleased that SSA plans
to recover the entire amount of unallowable indirect costs identified during our audit.
We are encouraged that OR-DHS stated it had removed $124,868 of unallowable
indirect charges from three components and reimbursed SSA $111,886 related to OIS
costs. However, SSA should work with OR-DHS to recover the remaining $3,240,551
of unallowable indirect costs. Finally, SSA should work with OR-DHS to implement
Recommendations 2 and 4.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   ii
                                                                        Table of Contents
                                                                                                                   Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

Indirect Costs Improperly Charged to SSA..............................................................4

    •    Office of Information Services.......................................................................5

    •    Volunteer Services .......................................................................................5

    •    Employment and Financial Services.............................................................5

    •    Financial Recovery .......................................................................................6

    •    Rate Setting..................................................................................................6

Unsupported Indirect Costs.....................................................................................6

CONCLUSIONS AND RECOMMENDATIONS.......................................................8

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Social Security Administration’s Comments

APPENDIX D – Oregon Department of Human Services’ Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
                                                                             Introduction
OBJECTIVE
Our objective was to determine whether the indirect costs claimed by the Oregon
Disability Determination Services (OR-DDS) for Federal Fiscal Years (FY) 2001 through
2003 were allowable and properly allocated.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The
SSI program provides payments to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies
for the development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by disability determination
services (DDS) in each State, or other responsible jurisdiction, in accordance with
Federal regulations.1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The expenditures include both direct and indirect costs.2 The
DDS withdraws Federal funds through the Department of the Treasury’s (Treasury)
Automated Standard Application for Payments system to pay for program expenditures.
Funds drawn down must comply with Federal regulations3 and intergovernmental
agreements entered into by Treasury and States under the Cash Management
Improvement Act of 1990.4 An advance or reimbursement for costs under the program
must comply with Office of Management and Budget (OMB) Circular A-87, Cost
1
    20 C.F.R. part 404, subpart Q, and part 416, subpart J.
2
  Direct costs can be identified specifically with a particular cost objective (OMB Circular A-87,
Attachment A, § E.1). Indirect costs arise from activities that benefit multiple programs but are not readily
assignable to these programs without effort disproportionate to the results achieved. (OMB Circular A-87,
Attachment A, § F.1).
3
    31 C.F.R. § 205.1 et seq.
4
    Pub. L. No. 101-453, 31 U.S.C. § 6501.


Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)                   1
Principles for State, Local, and Indian Tribal Governments. At the end of each quarter
of the FY, each DDS submits a Form SSA-4513, State Agency Report of Obligations for
SSA Disability Programs, to account for program disbursements and unliquidated
obligations.

Parent agencies, such as the Oregon Department of Human Services (OR-DHS), often
provide the State-designated DDS administrative services, such as accounting,
purchasing, and personnel. The costs associated with these services are referred to as
indirect costs. To allocate indirect costs to all the programs in the Department, OR-DHS
categorizes its operations in clusters, offices, units, and subunits. The OR-DDS is a unit
of the Employment & Financial Benefits Office within the Seniors & People with
Disabilities cluster. The following chart provides an overview of OR-DHS’ organizational
structure.

                                     State of Oregon
                                 Organizational Chart of
                              Department of Human Services
                                           Director's Office Services


                      Continuous     Finance &                           Children,    Community
  Administrative                                    Seniors & People                                  Health
                       System          Policy                            Adults &       Human
    Services                                        with Disabilities                                Services
                     Improvement      Analysis                           Families      Services


                                    Planning &           Employment &                 Home &
    Licensing &
                                     Program               Financial                 Community
   Quality of Care
                                   Development             Benefits                   Supports


                                    Disabilities           Disability
                                                                                  Employment &
                                   Employment            Determination
                                                                                Financial Services
                                      Policy               Services

                                                    Oregon
                                                     DDS
                                                   Operations



From FYs 2001 through 2003, OR-DDS had approximately 184 employees, and
OR-DHS reported indirect costs of $6.1 million with total administrative costs of
$64.5 million.

In FYs 2001 and 2002, OR-DHS used Provisional/Final Rates to allocate indirect costs
to OR-DDS. A Provisional Rate is a temporary indirect cost rate applicable to a
specified period that is used for funding, interim reimbursement, and reporting indirect
costs on Federal awards pending the establishment of a final rate for that period. The




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)                      2
final rate is applied to the specified past period, which is based on the actual allowable
costs for the period.5

In FY 2003, OR-DHS initiated a State Public Assistance Cost Allocation Plan (Cost
Allocation Plan). Under its Plan, OR-DHS accumulated the costs of activities that
benefit multiple programs in indirect cost pools. These costs were then allocated to
programs that derived a benefit from the activities based on personnel costs.




5
    OMB Circular A-87, Attachment E § B.7 and 8.


Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   3
                                                          Results of Review
OR-DHS incorrectly charged indirect costs to SSA programs. This occurred because
OR-DHS charged SSA for indirect costs from components that did not benefit OR-DDS,
and OR-DHS claimed indirect costs on its Form SSA-4513 for which it lacked
supporting documentation. As a result, OR-DHS improperly charged SSA for
$3,992,358 of unallowable costs for October 1998 through June 2004.

INDIRECT COSTS IMPROPERLY CHARGED TO SSA
Federal cost standards state that expenditures may be allocated to a particular program
if the goods or services are charged in accordance with the relative benefits received.6
They also state that indirect cost pools should be distributed to benefiting programs on
bases that will produce an equitable result in consideration of relative benefits derived.7
However, our review disclosed that, from October 1998 through June 2004, OR-DHS
charged SSA indirect costs from components that did not benefit OR-DDS. This
occurred, in part, because OR-DHS used flawed historical cost information and made
errors in estimating the degree of services provided by some of its components to
OR-DDS. The following chart illustrates the annual charges allocated and the charging
components. A discussion of each charging component follows the chart.

                              INDIRECT COSTS IMPROPERLY CHARGED TO SSA
                          Office of                 Employment
                        Information    Volunteer    and Financial Financial Rate
         Fiscal Year      Services     Services       Services    Recovery Setting Total
            2004       $          -  $        -     $     52,231 $ 7,676 $ 1,768 $    61,675
            2003             546,754                      13,176     36,097 13,920   609,947
            2002             635,058       35,885                                    670,943
            2001             676,283       72,584                                    748,867
            2000             553,575       88,517                                    642,092
            1999             671,580       72,201                                    743,781
            Total      $ 3,083,250 $ 269,187        $   65,407 $ 43,773 $ 15,688 $ 3,477,305




6
    OMB Circular A-87, Attachment A, § C.3.a.
7
    OMB Circular A-87, Attachment A § F.1.


Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)         4
Office of Information Services

OR-DHS improperly charged SSA for indirect costs from the Office of Information
Services (OIS). OIS provides application development and support, desktop support,
and strategic planning and coordination of information systems for OR-DHS and most of
its components. However, OR-DDS personnel stated they stopped relying on OIS to
provide user support and began providing most of their own network support in 1995.
Instead of relying on OIS, OR-DDS maintains its own dedicated seven-member team
that provides system support for DDS operations. The cost of maintaining this team is
charged directly to SSA. In addition, SSA has been charged directly for nearly all of
OR-DDS’ hardware and software requirements since January 1995.

During our audit, OR-DHS conceded that OIS provided no benefit to OR-DDS.
Additionally, OR-DHS stated it would no longer allocate indirect costs from OIS to
OR-DDS. In February 2004, OR-DHS deducted $111,886 of OIS costs from its
quarterly State Agency Report of Obligations for SSA Disability Programs (SSA-4513).

Our review of the accounting records found that, for FYs 1999 through 2003, OR-DHS
improperly charged SSA $3,083,250 in indirect costs from OIS. We did not quantify the
amounts improperly charged to SSA from OIS for FYs 1995 through 1998 because the
accounting records were not readily available for this period.

Volunteer Services

From FYs 1999 through 2002, OR-DHS allocated indirect costs from Volunteer Services
to OR-DDS. Volunteer Services provides OR-DHS’ clients transportation services;
however, OR-DDS stated it seldom used Volunteer Services. Instead, it preferred to
rely on other forms of transportation (for example, taxis), which were paid when the
services were rendered. Accordingly, we determined OR-DHS improperly charged SSA
$269,187 in indirect costs from Volunteer Services. In FY 2003, OR-DHS initiated a
cost allocation plan that does not allocate indirect costs from Volunteer Services to
OR-DDS.

Employment and Financial Services

In FYs 2003 and 2004, under the Cost Allocation Plan, OR-DHS allocated to OR-DDS
indirect costs from the Employment & Financial Services unit. This unit, along with
OR-DDS, is a unit of the Employment & Financial Benefits Office within the Seniors &
People with Disabilities cluster. We determined that the Employment and Financial
Services unit’s programs provided no benefits to OR-DDS.

The Medicaid, General Assistance and Food Stamp, and Employed Persons with
Disabilities recipients benefited from this unit’s services, not OR-DDS. We informed
OR-DHS of this condition and it agreed the allocation to OR-DDS was incorrect. As a
result, OR-DHS improperly charged SSA $65,407 in indirect costs from the
Employment & Financial Services unit in FYs 2003 and 2004.



Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   5
Financial Recovery
In FYs 2003 and 2004, OR-DHS improperly charged SSA costs from the Financial
Recovery unit. This unit is responsible for recovering state and Federal funds from any
party owing money to OR-DHS. The type of recovery activities within the unit include:

•      recovery of medical benefits and services provided to deceased Medicaid and
       General Assistance recipients;
•      a review of welfare recipient injury claim forms for insurance and liability;
•      recovery of OR-DHS client and provider overpayments;
•      collection of revenue in support of institutional operations;
•      investigation and recovery of medical expenditures found to be the responsibility
       of third parties; and
•      recovery of other miscellaneous receivables.

We found that OR-DHS charged OR-DDS $36,097 from the Financial Recovery unit in
FY 2003 and $7,676 in FY 2004. However, based on the description of services
provided by the Financial Recovery unit and our interviews with OR-DHS, we concluded
this unit did not provide a benefit to OR-DDS. Accordingly, OR-DHS should not have
charged SSA with $43,773 from the Financial Recovery unit.

Rate Setting

In FYs 2003 and 2004, OR-DHS allocated to OR-DDS indirect costs from the Finance &
Policy Analysis-Rate Setting unit. The Rate Setting unit serves as the department’s
lead office for development and implementation of provider rates for medical services
across major departmental programs, such as the Oregon Health Plan, long-term care
services for people with physical and developmental disabilities, and mental health
services. The unit coordinates provider rate issues across OR-DHS and with other
State agencies to ensure a cohesive rate policy.

We concluded the Rate Setting unit activities did not relate to OR-DDS operations, and
OR-DHS agreed the allocation to OR-DDS was in error. Therefore, OR-DHS improperly
charged SSA with $15,688 in indirect costs from the Rate Setting unit.

UNSUPPORTED INDIRECT COSTS
In FY 2002, OR-DHS allocated indirect costs using a final/provisional rate and reported
$1,911,291 in indirect costs. However, OR-DHS’ actual expenditures for FY 2002
totaled $1,396,238. According to OR-DHS, it was not required to reconcile its claimed
costs to actual costs incurred because it had an approved indirect cost rate.
Consequently, OR-DHS overstated indirect costs by $515,053.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   6
SSA policy requires that the State submit a report of its actual expenditures. Any
money the State spends for purposes not within the scope of the regulations must be
repaid to the U.S. Treasury.8

OMB Circular A-879 states a provisional rate is a temporary rate, agreed to in advance,
and based on anticipated future costs. It is subject to retroactive adjustment at a future
date after costs are known. A final rate is established after the costs are known.
Underpayments resulting from application of the provisional rate are subject to
availability of funds, while overpayments must be credited or returned.




8
    SSA Program Operations Manual System DI 39506.001 A.
9
    Implementation Guide for OMB Circular A-87, Part 6.2.1 (1) and (2).


Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   7
                                                    Conclusions and
                                                   Recommendations
OR-DHS incorrectly charged indirect costs to SSA programs. This occurred because
OR-DHS charged SSA for indirect costs from components that did not benefit OR-DDS,
and OR-DHS claimed indirect costs on its Form SSA-4513 for which it lacked
supporting documentation. As a result, OR-DHS improperly charged SSA for
$3,992,358 of unallowable costs for October 1998 through June 2004.

We recommend that SSA:

1. Instruct OR-DHS to refund $3,477,305 for unallowable indirect costs from
   components that did not benefit OR-DDS for FYs 1999 through 2004.

2. Instruct OR-DHS to identify and return unallowable indirect costs from OIS for FYs
   1995 through 1998.

3. Instruct OR-DHS to exclude OR-DDS from cost pools that do not provide it a benefit.

4. Instruct OR-DHS to refund $515,053 or provide documentation to support the total
   amount of indirect costs claimed for FY 2002.

SSA COMMENTS
SSA agreed with all of our recommendations. See Appendix C for full text of SSA’s
comments.

OR-DHS COMMENTS
OR-DHS generally agreed that it had incorrectly charged indirect costs to SSA
programs.

OR-DHS generally agreed with Recommendation 1. OR-DHS stated it had removed
$124,868 of charges from three components and refunded $111,886 related to OIS
costs. OR-DHS did not provide specific comments to address the remaining
$3,240,551 of unallowable indirect costs charged to SSA programs.

For Recommendation 3, OR-DHS stated it adjusted its cost allocation process to
eliminate OIS charges. In addition, OR-DHS stated that unallowable charges from three
components had been made because of administrative errors. OR-DHS did not provide
comments to Recommendations 2 and 4. See Appendix D for the full text of OR-DHS’
comments.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   8
OIG RESPONSE
We appreciate the comments from SSA and OR-DHS. We are pleased that SSA plans
to recover the entire amount of unallowable indirect costs identified during our audit.
We are encouraged that OR-DHS stated it had removed $124,868 of unallowable
indirect charges from three components and reimbursed SSA $111,886 related to OIS
costs. However, SSA should work with OR-DHS to recover the remaining $3,240,551
of unallowable indirect costs. Finally, SSA should work with OR-DHS to implement
Recommendations 2 and 4.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   9
                                            Appendices




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
                                                                           Appendix A

Acronyms
 Act               Social Security Act
 C.F.R.            Code of Federal Regulations
 DDS               Disability Determination Services
 DI                Disability Insurance
 FY                Fiscal Year
 OMB               Office of Management and Budget
 OR-DHS            Oregon Department of Human Services
 OR-DDS            Oregon Disability Determination Services
 OIS               Office of Information Services
 POMS              Program Operations Manual System
 SSA               Social Security Administration
 SSA-4513          State Agency Report of Obligations for SSA Disability Programs
 SSI               Supplemental Security Income
 Treasury          Department of the Treasury
 U.S.C.            United States Code




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
                                                                           Appendix B

Scope and Methodology
We reviewed the indirect costs reported by the Oregon Department of Human Services
(OR-DHS) and its component, the Oregon Disability Determination Services (OR-DDS),
on its State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
for Federal Fiscal Years (FY) 2001 through 2003. For the items tested, we reviewed
OR-DHS’ and OR-DDS’ compliance with applicable laws and regulations over the
allowability of indirect costs and draw down of Federal funds. However, two of our
findings affected the costs claimed in FYs 1999 and 2000. In addition, OR-DHS
provided us FY 2004 data where we found continued incorrect allocations from three of
its components. Therefore, we expanded the audit period to fully develop these
findings.

To accomplish our objectives, we:

•      Reviewed Office of Management and Budget Circular A-87, the Code of Federal
       Regulations, United States Code, the Social Security Administration’s (SSA)
       Program Operations Manual System, and OR-DHS’ Cost Allocation Plan.

•      Interviewed employees from SSA, the Department of Health and Human
       Services Division of Cost Allocation, OR-DHS, and OR-DDS.

•      Reconciled the amount of Federal funds drawn for support of program operations
       to the claimed expenditures for FYs 2001, 2002, and 2003.

•      Examined the indirect costs incurred and claimed by OR-DHS for Employment
       and Financial Services, Financial Recovery, and Rate Setting during FYs 2003
       and 2004.

•      Examined the indirect costs incurred and claimed by OR-DHS for Office of
       Information Services and Volunteer Services during FYs 1999, 2000, 2001, 2002
       and 2003.

•      Reconciled the accounting records to the indirect costs reported by OR-DHS on
       its Form SSA-4513 for FYs 2001, 2002 and 2003.

We determined OR-DHS’ computer-processed data to be sufficiently reliable for their
intended use. We tested cash draw receipts and disbursements recorded in the
OR-DHS' automated accounting system made on behalf of OR-DDS. We completed
tests to determine the completeness, accuracy, and validity of the data. These tests
allowed us to assess the reliability of the data and achieve our audit objectives.



Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   B-1
We performed audit work at OR-DHS and OR-DDS in Salem, Oregon. In addition, we
performed audit work at the SSA regional office in Richmond, California. We conducted
field work from April 2004 through October 2004. We conducted our audit in
accordance with generally accepted government auditing standards.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   B-2
                                                                           Appendix C

Social Security Administration’s Comments




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
                                  SOCIAL SECURITY
   MEMORANDUM

  Date:  May 11, 2005                                                        Refer To:
  S2DXG3:D3

   To:        Assistant Inspector General                                    Seattle Regional
   Office
              for Audit

   From:      Regional Commissioner
              Seattle Region

   Subject: Indirect Costs Claimed by the Oregon Disability Determination Services
            (A-09-05-15001) - REPLY


   This responds to the draft audit report of Indirect Costs Claimed by the Oregon
   Disability Determination Services (OR-DDS) (A-09-05-15001). The Office of the
   Inspector General (OIG) had four recommendations for the Oregon Department of
   Human Services (OR-DHS). Each recommendation, with our response, is shown
   below:

      1. Instruct OR-DHS to refund $3,477,305 for unallowable indirect costs from
         components that did not benefit OR-DDS for fiscal years (FYs) 1999 through
         2004.

            We agree with the recommendation that the OR-DHS should refund $3,477,305
            for unallowable indirect costs from components that did not benefit OR-DDS for
            FYs 1999 through 2004.

      2. Instruct OR-DHS to identify and return unallowable indirect costs from Office of
         Information Systems (OIS) for FYs 1995 through 1998.

            We agree with the recommendation that the OR-DHS should identify and return
            unallowable indirect costs from OIS for FYs 1995 through 1998. We will work
            with the OR-DDS and OR-DHS to determine unallowable indirect costs for the
            period 1995 – 1998.



Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)       C-1
      3. Instruct OR-DHS to exclude OR-DDS from cost pools that do not provide it a
         benefit.

          We agree with the recommendation that the OR-DHS exclude the OR-DDS from
          cost pools that do not provide it a benefit. The OR-DDS and OR-DHS have taken
          steps to ensure only costs pools that benefit the OR-DDS are included in indirect
          cost payments. The OIG audit provided guidance to the OR-DHS on appropriate
          charges to the OR-DDS. SSA and the OR-DDS will continue to monitor OR-
          DHS indirect cost pool charges.

      4. Instruct OR-DHS to refund $515,053 or provide documentation to support the
         total amount of indirect costs claimed for FY 2002.

          We agree with the recommendation that the OR-DHS should refund $515,053 or
          provide documentation to support the total amount of indirect costs claimed for
          FY 2002.

If you have any questions regarding this audit, please contact, Shelly Beach, Program
Expert, in the Center for Disability at shelly.beach@ssa.gov , by telephone at 206-615-
2137, or Don Larsen, Disability Program Administrator at don.larsen@ssa.gov , by
telephone at 206-615-2651.



                                      /s/ Carl L. Rabun


cc: Gloria Berning, Assistant Administrator, DDS
    Office of Disability Programs, RMB




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)        C-2
                                                                           Appendix D

Oregon Department of Human Services’
Comments




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   D-1
Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)   D-2
                                                                            Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments
In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Daniel Hoy, Auditor

   Brennan Kraje, Statistician

   Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-3218. Refer to Common Identification Number
A-09-05-15001.




Indirect Costs Claimed by the Oregon Disability Determination Services (A-09-05-15001)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
